OIG Audit Report 05-06
Offices, Boards and Divisions Annual Financial Statement
Fiscal Year 2004
Report No. 05-06
January 2005
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement for the Offices, Boards and Divisions (OBDs) for the fiscal years ended September 30, 2004, and September 30, 2003.  The OBDs are a reporting entity within the U.S. Department of Justice (DOJ).  The OBDs consist of the U.S. Attorneys, U.S. Trustees, Office of Community Oriented Policing Services, Executive Office for Immigration Review, Legal Divisions, and general administration offices.
Under the direction of the Office of the Inspector General (OIG),
KPMG LLP (KPMG) performed the audit, which resulted in an unqualified opinion on the FY 2004 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  The OBDs also received an unqualified opinion on the FY 2003 financial statements (OIG Report Number 04-27).
The Independent Auditors Report on Internal Control over Financial Reporting identified two reportable conditions in FY 2004.  The first reportable condition, improvement needed in certain accrual accounting functions, was part of a larger condition reported as a material weakness in FY 2003.  The second reportable condition, weaknesses exist in the information system controls environment, included a repeat issue on the U.S. Trustees Automated Case Management System application and new issues on the OBDs financial management information system, FMIS 2.
In the FY 2004 Auditors Report on Compliance and Other Matters, the auditors concluded that the OBDs financial management system did not substantially comply with applicable federal accounting standards as required by the Federal Financial Management Improvement Act.
The OIG reviewed KPMGs report and related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit in accordance with U.S. generally accepted government auditing standards, was not intended to enable us to express, and we do not express, an opinion on the OBDs financial statements, conclusions about the effectiveness of internal control, or conclusions on compliance with laws and regulations.  KPMG is responsible for the attached auditors report dated October 27, 2004, and the conclusions expressed in the report.  However, our review disclosed no instances where KPMG did not comply, in all material respects, with generally accepted government auditing standards.